                                                                                                             July 31, 2014


General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
  Commander, International Security Assistance Force

Dear General Dunford:

This letter is to inquire about your plans for maintaining the U.S. military’s support for programs and
task forces to combat corruption in Afghanistan after U.S. combat operations conclude at the end of
this year.

Numerous surveys, audits, legal proceedings, and reports from Afghan, international, and U.S.
experts and organizations have identified corruption as one of the most serious obstacles to the
reconstruction effort. In fact, the February 2014 Joint and Coalition Operational Analysis report,
issued in response to your office’s request to examine the threat posed by corruption in Afghanistan,
bluntly warned that “corruption alienates key elements of the population, discredits the government
and security forces, undermines international support, subverts state functions and rule of law, robs
the state of revenue, and creates barriers to economic growth.” In short, “corruption directly
threatens the viability and legitimacy of the Afghan State.” 1

Although the United States has not had a comprehensive strategy to guide its anti/counter-
corruption activities in Afghanistan, U.S. military agencies did establish various task forces to try to
understand and counter the pervasive corruption in that country. For example, in 2010, the
Department of Defense established Task Force 2010 in an effort to ensure that U.S.-funded
contracts did not support the insurgency, and it created Task Force Shafafiyat to focus on the
intersection of corruption with the narcotics trade and the insurgency. While creating and supporting
these task forces was difficult, given the many competing military demands throughout Afghanistan,
they were an essential step toward addressing a major problem that threatens to undermine the
entire reconstruction effort in Afghanistan.

Maintaining these task forces and other initiatives to stem corruption will grow increasing complex
as the U.S. military drawdown accelerates and the Afghan government takes on additional
responsibilities. To help determine how the U.S. government is preparing to handle these challenges,
I am requesting answers to the following questions:




1 Department of Defense, Joint and Coalition Operational Analysis (JCOA), division of Joint Staff J-7 (Joint Force

Development), “Operationalizing Counter/Anti-Corruption Study,” February 28, 2014.
    1) What actions has your command taken in response to the recommendations included in the
       Joint and Coalition Operational Analysis anti/counter-corruption report?
    2) What is the current status of and what are the future plans for the U.S. or international
       advisors assigned to improve the effectiveness of the Inspectors General of the Afghan
       Ministry of Defense and the Ministry of Interior?
    3) What is the current status of and what are the future plans for the Combined Joint Inter-
       Agency Task Force – Afghanistan (CJIATFA) and its subordinate units (Task Force Nexus, Task
       Force 2010, Major Crimes Task Force, Task Force Shafafiyat, and Afghan Threat Finance
       Cell)?
    4) Do the International Security Assistance Force and U.S. Forces-Afghanistan have a
       comprehensive plan for combating corruption in the post-transition period? If so, please
       provide a copy of that plan.
Please provide your response no later than August 14, 2014. I am submitting this request pursuant
to my authority under Public Law No. 110-181, as amended, and the Inspector General Act of 1978,
as amended. Please provide the requested information to Jack Mitchell, Director of the Office of
Special Projects, at john.h.mitchell161.civ@mail.mil or (703) 545- 5964. Please contact him if you
have any questions.

Thank you for your cooperation. I look forward to your response and working with you in support of
our nation’s critical mission in Afghanistan.

                                                               Sincerely,




                                                               John F. Sopko
                                                               Special Inspector General
                                                                For Afghanistan Reconstruction


CC: General Lloyd J. Austin III, Commander, U.S. Central Command




SIGAR-14-88-SP Inquiry Letter: DOD Anti/Counter Corruption Efforts                                 Page 2
